<html>
<title> - H.R. 1208, TO ESTABLISH THE MANHATTAN PROJECT NATIONAL HISTORICAL PARK IN OAK RIDGE, TN, LOS ALAMOS, NM, AND HANFORD, WA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            H.R. 1208, TO ESTABLISH THE MANHATTAN 
             PROJECT NATIONAL HISTORICAL PARK IN OAK RIDGE, 
             TN, LOS ALAMOS, NM, AND HANFORD, WA
=======================================================================


                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Friday, April 12, 2013

                               __________

                           Serial No. 113-10

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
80-442                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul Labrador, ID                    Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, April 12, 2013...........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Beehan, Hon. Thomas L., Mayor, City of Oak Ridge, Tennessee, 
      Chairman, Energy Communities Alliance......................    11
        Prepared statement of....................................    12
    Berting, Fran, County Councilor, The Incorporated County of 
      Los Alamos, New Mexico.....................................    15
        Clarification for the record.............................    25
        Prepared statement of....................................    16
    Fleischmann, Hon. Charles J. ``Chuck'', a Representative in 
      Congress from the State of Tennessee.......................     4
    Knox, Victor W., Associate Director, Park Planning, 
      Facilities, and Public Lands, National Park Service, U.S. 
      Department of the Interior.................................     5
        Prepared statement of....................................     6
    Young, Hon. Steve C., Mayor, City of Kennewick, Washington...     8
        Prepared statement of....................................     9
                                     


 LEGISLATIVE HEARING ON H.R. 1208, TO ESTABLISH THE MANHATTAN PROJECT 
   NATIONAL HISTORICAL PARK IN OAK RIDGE, TENNESSEE, LOS ALAMOS, NEW 
         MEXICO AND HANFORD, WASHINGTON, AND FOR OTHER PURPOSES

                              ----------                              


                         Friday, April 12, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:01 a.m. in 
room 1324, Longworth House Office Building, Hon. Doc Hastings 
presiding.
    Members present: Representatives McClintock, Tipton, 
Cramer, LaMalfa, Grijalva, and Sablan.
    Also present: Representatives Hastings and Fleischmann.
    Mr. Hastings. The Subcommittee will come to order, and I'll 
note that this is the Subcommittee that Chairman Bishop has a 
conflict. And so as Chairman of the Full Committee, I get to 
take his place, and so I'm pleased to be here.
    The Chair notes the presence of a quorum, and I would ask 
unanimous consent that Mr. Fleischmann from Tennessee, who used 
to be a member of this Committee, be allowed to sit on the dais 
and participate.
    Without objection, so ordered. And, welcome, Chuck.
    Under the rules, opening statements are limited to the 
Chairman and the Ranking Member; however, I ask unanimous 
consent that any Member that wishes, to have a statement 
submitted to the clerk prior to close of business today. I will 
now recognize myself for 5 minutes for my opening statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Today's hearing is another step forward in 
the effort to establish a historical park to preserve the story 
and facilities of the Manhattan Project. This effort consists 
of many years of careful study and consideration, and even more 
years of dedicated advocacy by individuals and organizations in 
communities that are directly touched and were directly touched 
by the Manhattan Project.
    Last June, these years of efforts culminated in the 
introduction of a bipartisan legislation in both the House and 
the Senate to establish a Manhattan Project National Historical 
Park and that park would be at Hanford in my State of 
Washington; Los Alamos in New Mexico, and Oak Ridge in 
Tennessee. As with hundreds of other bills, this legislation 
did not advance to become law in the last Congress, yet 
significant progress was made.
    The House and Senate held back-to-back hearings to hear 
testimony of support, and the bill was approved by this 
Committee and advanced to the full House for consideration. In 
a vote of the House under suspension process, it requires two-
thirds majority. And, while we had a majority, we didn't have 
the two-thirds, so the bill did not pass the House last year. 
But, we do know that the majority of the House supports this 
legislation, both Democrats and Republicans; and, so, the 
question of passage is not one of if, but when, and we will 
obviously work on that.
    As we begin this new Congress, bipartisan legislation has 
again been introduced in both the House and the Senate and the 
Senate is expected to follow today's hearing with one of their 
own later on this month. The Representatives and Senators of 
both parties that are working together on this legislation are 
very committed to advancing this historical park into law. And 
even though we have a great deal of passion, that passion is 
exceeded by those, the volunteers, in the respective 
communities across the Nation.
    We are fortunate to have representatives from each of the 
three communities here today to testify on this legislation. 
There are many historical, economic and tourism development 
organizations in each of these communities that have helped 
lead the way in preserving this piece of our Nation's history. 
They are doing a tremendous job communicating the important 
positive role this part can play in telling the story of our 
efforts during the Second World War as we move forward, and 
what they did with the Manhattan Project.
    Today's witnesses are all elected leaders and members of 
the Energy Community Alliance, an organization of local 
communities whose towns are directly impacted by the presence 
of significant Department of Energy facilities. I am 
particularly grateful for the Alliance's willingness to work 
with the Committee in arranging today's hearing, which 
coincides with their annual meeting here in our nation's 
capital.
    We are also joined by a witness from the National Park 
Service. Establishing a Manhattan Project National Historical 
Park is supported by the Park Service as well as Department of 
the Interior and Department of Energy. One key point that I 
know the witnesses will cover, that I believe is important to 
stress, is that the vast majority of the historical facilities 
identified for inclusion in this park are already owned by the 
Federal Government. At Hanford, in my State of Washington, 
every single property is federally owned. Department of Energy 
is responsible for these properties and is, in fact, legally 
responsible for spending tens of millions of dollars to destroy 
what's on those properties.
    Rather than spend vast sums of taxpayer dollars to 
dismantle and demolish irreplaceable pieces of our Nation's 
history, it is far wiser and cheaper to dedicate lower sums of 
money to preserve them for posterity. Clearly, the nature and 
location of these facilities, especially those located on 
secure Department of Energy sites presents a challenge, but 
this legislation facilitates coordination, planning and 
cooperation with the Department of Energy to ensure safe and 
secure visitor access and protection of our national security.
    So, I would like to ask unanimous consent, because this is 
kind of a repeat hearing of what we had last time, unanimous 
consent that the testimony of witnesses at last year's hearing 
be part of this record, and without objection, so ordered. 
(Testimony from the June 28, 2012 hearing can be found at 
http://www.gpo.gov/fdsys/pkg/CHRG-112hhrg74876/pdf/CHRG-
112hhrg74876.pdf.)
    [The prepared statement of Mr. Hastings follows:]
 Prepared Statement of The Honorable Doc Hastings, Chairman, Committee 
                          on Natural Resources
    Today's hearing is another step forward in the effort to establish 
a historical park to preserve the story and facilities of the Manhattan 
Project. This effort consists of many years of careful study and 
consideration, and even more years of dedicated advocacy by individuals 
and organizations in communities directly touched by the Manhattan 
Project. Last June, these years of efforts culminated in the 
introduction of bipartisan legislation in both the House and Senate to 
establish a Manhattan Project National Historical Park at Hanford, 
Washington, Los Alamos, New Mexico and Oak Ridge, Tennessee.
    As with hundreds of other bills, this legislation did not advance 
to become law last Congress. Yet significant progress was made. The 
House and Senate held back-to-back hearings to hear testimony of 
support, and the bill was approved by the House Natural Resources 
Committee and advanced to the full House for consideration. In a vote 
of the House under the suspension process, a strong majority of the 
House voted to pass the bill, though it did not receive the super-
majority vote of two-thirds needed to send the bill to the Senate under 
this expedited procedure. We now know that a majority of the House--
which includes both a majority of Republicans and Democrats--support 
establishment of this Historical Park and its passage is now a question 
of when, not if.
    As we begin this new Congress, bipartisan legislation has again 
been proposed in both the House and Senate. And the Senate is expected 
to follow today's hearing with its own later this month.
    The Representatives and Senators of both parties that are working 
together on this legislation are very committed to advancing this 
historical park into law--though even our passion for establishing the 
park is exceeded by that of the volunteers and local leaders in the 
three Manhattan Project communities and others across the Nation. We 
were fortunate to have a representative from each of the three 
communities testify at last year's hearing, and we are fortunate to 
have similar representation today. There are many historical, economic 
and tourism development organizations in each of the communities that 
have helped lead the way in preserving this piece of our Nation's 
history. They are doing a tremendous job communicating the important 
positive role this park can play in telling the story of efforts during 
the Second World War to accomplish an unprecedented, and many thought, 
impossible, industrial and scientific achievement--to construct a 
nuclear weapon and counter threats of similar development by Nazi 
Germany.
                                 ______
                                 
    Mr. Hastings. And with that, I recognize the distinguished 
Ranking Member for his opening statement.

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. Chairman and witnesses, 
thank you for coming today. I hope you had a peek at the cherry 
blossoms, because after this storm today there might not be too 
many of them left for you to enjoy.
    Many of us supported the Chairman's legislation and his 
efforts to move this legislation last Congress. It's a good 
idea and the Chairman has worked hard on the issue for a long 
time. We continue to have concerns with provisions in the 
legislation limiting the park service from acquiring additional 
lands or facilities in the future, and that concern has been 
noted. And, without any further ado, so the witnesses can get 
to their testimony, let me thank you and thank you for coming 
today. And I yield back, Mr. Chair.
    Mr. Hastings. Thank you very much for the brevity of your 
opening statement, and I would tell my good friend from Arizona 
that cherry blossoms are real blossoms in my State of 
Washington, because at the end of the day they produce 
cherries.
    [Laughter.]
    We have a distinguished panel here. We have Mr. Victor 
Knox, who is Associate Director of Park Planning, Facilities, 
and Public Lands of the National Park Service from the 
Department of the Interior. I will yield to my friend from 
Tennessee for the introduction of Tom Beehan, but we have also 
with us the Mayor of the City of Kennewick, part of the Tri-
Cities in my home State.
    I have known Steve for a number of years. He said it was 
30. I didn't know it was that long. It could have been, but, at 
any rate, Steve has been very much an advocate and a very good 
representative for our three communities there as far as this 
Manhattan Project. And we also have Fran Berting, County 
Councilor for the County of Los Alamos in New Mexico and a 
former resident, by the way, of the Tri-Cities. And, Fran, 
thank you for reminding me of that. My memory now is coming 
back.
    At this time, I'd like to yield to my colleague from 
Tennessee for purposes of introduction. Chuck?

   STATEMENT OF THE HON. CHARLES J. ``CHUCK'' FLEISCHMANN, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Chairman Hastings, Ranking Member Grijalva, distinguished 
members of the Subcommittee. Thank you for giving me the 
opportunity to introduce Oak Ridge Mayor Tom Beehan. Mayor 
Beehan is a constituent of mine and has joined us here today to 
talk about the importance of the Manhattan Project National 
Park to Oak Ridge and all of east Tennessee.
    I represent the Third District of Tennessee, which includes 
Oak Ridge. One cannot spend much time in my district without 
becoming aware of just how important the legacy of the 
Manhattan Project is to east Tennessee. From our cutting edge 
scientific research at Oak Ridge National Lab to critical 
National Security work at Y-12 to our important nuclear clean-
up mission, so much of our history began with the thousands of 
Tennesseeans who worked hard every day to complete the 
Manhattan Project.
    The Park will provide visitors with a first-hand look at 
the incredible work done at Oak Ridge and pay tribute to those 
who work at Y-12, K25, and the X-10 graphite reactor. A unique 
time in our history, we accomplished incredible feats in 
completing the Manhattan project.
    Mayor Beehan understands the importance of the Park to our 
community. Who knows why it is so important to preserve the 
unique place that Oak Ridge holds in the history of our Nation, 
just like it's important that we preserve legacies at Hanford 
and Los Alamos.
    I thank Mayor Beehan for his dedication to the Manhattan 
National Park and I thank him for joining us today. It is my 
pleasure to introduce Mayor Tom Beehan of Oak Ridge, Tennessee.
    Mr. Hastings. I thank the gentleman for the introduction 
and for the panel that's here. For those of you that are 
testifying in front of Congress the first time, I'll tell you 
how the process goes. You have that little timer in front of 
you, and there's a green light and a yellow light and a red 
light. And the way it works, first of all, your full statement 
will appear in the record that you have submitted to the 
Government.
    That will appear in the record. But what I'd like to do is 
ask you to keep your oral statements within the 5-minute rule. 
And the way the lights work is when the green light is on, 
you're doing extremely well; but, when the green light goes off 
and the yellow light comes on, that means there's 1 minute 
left. And then when the red light goes on, well, you just don't 
want to go there. OK?
    I could, of course, but if you would keep your remarks 
within that 5 minutes, that's what the lights are when they 
come on. So, if you could do it that way, we'll start then, Mr. 
Knox, with you, and you are recognized for 5 minutes.

STATEMENT OF VICTOR W. KNOX, ASSOCIATE DIRECTOR, PARK PLANNING, 
   FACILITIES, AND PUBLIC LANDS, NATIONAL PARK SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Knox. Mr. Chairman, I am very pleased to be here today 
and thank you for the opportunity to present the Department of 
the Interior's views on H.R. 1208. I'd like to submit a full 
statement for the record and summarize our position today here.
    The Administration supports H.R. 1208 with amendments. The 
bill would authorize establishment of Manhattan Project 
National Historical Park in Oak Ridge, Tennessee, Los Alamos, 
New Mexico and Hanford, Washington.
    Development of the atomic bomb through the Manhattan 
Project was one of the most transformative events in our 
Nation's history. It ushered in the atomic age. It changed the 
role of the United States in the world community and set the 
stage for the cold war. This legislation would enable the 
National Park Service to work in partnership with the 
Department of Energy to ensure the preservation of key 
resources associated with the Manhattan Project and to increase 
public awareness and understanding of this consequential event.
    H.R. 1208 is based on the recommendations developed through 
the special resource study for the Manhattan Project sites. It 
was authorized by Congress in 2004 and transmitted to Congress 
in July 2011. The study, which was conducted by the National 
Park Service in consultation with the Department of Energy 
determined that resources at Oak Ridge, Los Alamos and Hanford 
met the National Park Service criteria of national significance 
suitability, feasibility and the need for Federal management 
for designation as a unit of the national park system.
    H.R. 1208 assigns the respective roles and responsibility 
of the National Park Service and the Department of Energy as 
envisioned in the study. Basically, the National Park Service 
would use its expertise in the areas of interpretation and 
education to increase public awareness and understanding of 
this story, while the Department of Energy would retain full 
responsibility for our operations, maintenance, safe access and 
preservation of the historic Manhattan Project properties 
already under its jurisdiction.
    We appreciate the language in the bill specifically 
providing for amendments to a future agreement with the 
Department of Energy and a broad range of authorities for the 
Secretary of the Interior, as these provisions would give the 
National Park Service flexibility to shape the park over time 
and to maximize the promotion of education and interpretation 
related to the Park's purpose.
    We look forward to implementing this legislation in 
partnership with the Department of Energy. While we support 
H.R. 1208, there are some areas where we would like to 
recommend amendments. Among our concerns to the bill language 
are the bill language regarding the written consent of property 
owners, land acquisition limitations and activities outside of 
the park. We are continuing to review the bill for any 
technical issues and we would be happy to work with the 
Committee to develop appropriate language and will provide our 
recommendations in the near future.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Knox follows:]
    Prepared Statement of Victor W. Knox, Associate Director, Park 
  Planning, Facilities, and Public Lands, National Park Service, U.S. 
                       Department of the Interior
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1208, a bill to establish the 
Manhattan Project National Historical Park in Oak Ridge, Tennessee, Los 
Alamos, New Mexico, and Hanford, Washington, and for other purposes.
    The Administration supports H.R. 1208 with amendments. The 
development of the atomic bomb through the Manhattan Project was one of 
the most transformative events in our Nation's history: it ushered in 
the atomic age, changed the role of the United States in the world 
community, and set the stage for the cold war. This legislation would 
enable the National Park Service to work in partnership with the 
Department of Energy to ensure the preservation of key resources 
associated with the Manhattan Project and to increase public awareness 
and understanding of this consequential effort.
    H.R. 1208 would require the establishment of the Manhattan Project 
National Historical Park as a unit of the National Park System within 1 
year of enactment, during which time the Secretary of the Interior and 
the Secretary of Energy would enter into an agreement on the respective 
roles of the two departments. The unit would consist of facilities and 
areas located in Oak Ridge, Los Alamos, and Hanford, as identified in 
the bill and determined by the Secretary of the Interior in 
consultation with the Secretary of Energy, except for the B Reactor 
National Historic Landmark in Hanford, which would be required to be 
included in the park. The National Historical Park would be established 
by the Secretary of the Interior by publication of a Federal Register 
notice within 30 days after the agreement is made between the two 
secretaries.
    The bill would also provide authority for the Secretary of the 
Interior to enter into agreements with other Federal agencies to 
provide public access to, and management, interpretation, and historic 
preservation of, historically significant resources associated with the 
Manhattan Project; to provide technical assistance for Manhattan 
Project resources not included within the park; and to enter into 
cooperative agreements and accept donations related to park purposes. 
Additionally, it would allow the Secretary of the Interior to accept 
donations or enter into agreements to provide visitor services and 
administrative facilities within reasonable proximity to the park. The 
Secretary of Energy would be authorized to accept donations to help 
preserve and provide access to Manhattan Project resources.
    H.R. 1208 is based on the recommendations developed through the 
special resource study for the Manhattan Project Sites that was 
authorized by Congress in 2004 and transmitted to Congress in July 
2011. The study, which was conducted by the National Park Service in 
consultation with the Department of Energy, determined that resources 
at Oak Ridge, Los Alamos, and Hanford, met the National Park Service's 
criteria of national significance, suitability, feasibility, and the 
need for Federal management for designation as a unit of the National 
Park System. H.R. 1208 assigns the respective roles and 
responsibilities of the National Park Service and the Department of 
Energy as envisioned in the study; the National Park Service would use 
its expertise in the areas of interpretation and education to increase 
public awareness and understanding of the story, while the Department 
of Energy would retain full responsibility for operations, maintenance, 
safe access, and preservation of historic Manhattan Project properties 
already under its jurisdiction along with full responsibility for any 
environmental remediation that is deemed necessary related to the 
properties to ensure public safety.
    Because the Department of Energy would maintain and operate, as 
they do currently, the primary facilities associated with the Manhattan 
Project National Historical Park, the study estimated that the National 
Park Service's annual operation and maintenance costs for the three 
sites together would range from $2.45 million to $4 million. It also 
estimated that completing the General Management Plan for the park 
would cost an estimated $750,000. Costs of acquiring lands or interests 
in land, or developing facilities, would be estimated during the 
development of the General Management Plan. The Department of Energy 
has not yet assessed fully the operational difficulties in terms of 
security and public health and safety, applicable statutory and 
regulatory requirements, and the potential new cost of national park 
designation at the sensitive national security and cleanup sites, which 
would be addressed with the context of the General Management Plan.
    The Department anticipates that the initial agreement between the 
two Departments likely would be fairly limited in scope, given the 
bill's 1-year timeframe for executing an agreement that would enable 
the Secretary of the Interior to establish the Manhattan Project 
National Historical Park. We appreciate the language specifically 
providing for amendments to the agreement and a broad range of 
authorities for the Secretary of the Interior, as these provisions 
would give the National Park Service the flexibility to shape the park 
over time and to maximize the promotion of education and interpretation 
related to the park's purpose in coordination and consultation with the 
Department of Energy.
    The flexibility is particularly important because managing a park 
with such complex resources, in partnership with another Federal 
agency, at three sites across the country, will likely bring 
unanticipated challenges. Some of the resources that may be included in 
the park may be near facilities that have highly sensitive, ongoing 
national security missions including nuclear weapons production and 
intelligence activities. Also, some of these sites may be on the U.S. 
Environmental Protection Agency's National Priorities List. If this 
legislation is enacted, these issues, among others, will be taken into 
consideration by the Departments in the development of an agreement and 
management plan. The National Park Service has already begun a 
partnership with the Department of Energy regarding the Manhattan 
Project resources through our coordinated work on the study. If this 
legislation is enacted, we look forward to building a stronger 
partnership that will enable us to meet the challenges ahead.
    While we support H.R. 1208, there are some areas where we would 
like to recommend amendments. Among our concerns are the bill language 
regarding the written consent of owners; land acquisition limitations; 
and activities outside of the park. We are continuing to review the 
bill for any technical issues. We would be happy to work with the 
committee to develop the appropriate language and will provide our 
recommendations in the near future.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Hastings. Thank you very much, Mr. Knox. By the way, 
you can't transfer more time to another witness here.
    Mr. Knox. Oh, I was hoping you could. Thank you, Mr. 
Chairman.
    Mr. Hastings. I appreciate that very much. Next, I 
recognize Mayor Steve Young from the City of Kennewick and my 
home State of Washington.
    Mayor Young, you are recognized.

         STATEMENT OF THE HON. STEVEN C. YOUNG, MAYOR, 
                 CITY OF KENNEWICK, WASHINGTON

    Mr. Young. Thank you, Mr. Chairman.
    I want to thank you and the Committee members for inviting 
me to testify on House Resolution 1208, which is a bill to 
establish the Manhattan Project National Historic Park in Oak 
Ridge, Tennessee, Los Alamos, New Mexico, and, of course, 
Hanford, Washington. But I would also like to thank Chairman 
Doc Hastings and Representatives Ben Ray Lujan and Chuck 
Fleischmann for co-sponsoring this bill.
    My name is Steve Young. I am the Mayor of the City of 
Kennewick, Washington. I am also Chairman of the Hanford 
communities and Secretary to the Energy Communities Alliance, 
and I am here speaking in favor of H.R. 1208 on behalf of the 
Tri-Cities community of Washington State as well as in support 
of community organizations in Oak Ridge, Tennessee and Los 
Alamos, New Mexico. All three of our communities have passed 
resolutions supporting the Manhattan Project National 
Historical Park. And, since its inception we have been united 
in our support of this bill.
    It is easy for those of us who live in the communities of 
Oak Ridge, Los Alamos and Tri-Cities to say that the Manhattan 
Project changed the world; but, on August 13, 1942, the 
Manhattan Project was established under the command of Col. 
Leslie Groves. Three years and 1 day later, August 14, 1945, 
the war was done. Between those dates, more than 100,000 men 
and women were brought to these three sites from all over the 
world. A majority of these young men and women had no idea what 
they were building. At Hanford, more than 2,000 residents, 
mostly farmers, were given just days to weeks to move off their 
land. This included moving, getting rid of thousands of 
animals, all the farm equipment, and, most importantly, closing 
schools and moving families lock, stock and barrel.
    Once land was acquired by the Government, workers had to be 
found, engineers, physicists, chemists, carpenters, et cetera. 
Then, these same individuals first had to build their own town 
dormitories, mess halls, water, sewer rows, infrastructure of 
all kinds. This had to be done before they could even start 
construction on the reactors, nuclear fuel manufacturing and 
final chemical separation. At Hanford, the construction camp 
quickly became the third largest city in the State of 
Washington with 50,000 construction workers.
    Hanford construction stretched the imagination, housing the 
50,000 men and women, 386 miles of highway, 780,000 yards of 
concrete, and 158 miles of new railroad track. All of this was 
done without the aid of computers. These were the days of slide 
rules and handcrafted blueprints, and yes, I remember those. 
Equipment, electronics and piping could not be bought off the 
shelf, and for the most part everything used had to be 
fabricated on the Hanford site. The B reactor, itself, the 
world's, first, full-scale nuclear reactor was built in just 11 
months, start to finish.
    The design was based on the success of Enrico Fermi's 
Chicago Pile 1 and a pilot plant, the X-10 graphite reactor, 
located in Oak Ridge Tennessee. B Reactor was designed to 
produce 250 million watts, a million times more powerful than 
Chicago Pile 1, which produced the first ever sustained nuclear 
fission chain reaction under the bleachers at the University of 
Chicago Staff Field in December of 1942.
    Most importantly, the workers brought in to these three 
sites were among the most talented in the respective fields, 
whether it was physics or whether it was in pipe fitting. While 
we recognize the names of Enrico Fermi and Robert Oppenheimer, 
and Hans Bethe, we also need to give recognition to the many 
individual workers, most of whom stayed on the job and in these 
communities long after 1945. These are the engineering feats 
and accomplishments that must be told to future generations and 
it needs to be told before all of those old-timers are gone. As 
these three sites, and Oak Ridge, Los Alamos and Hanford are 
being cleaned up and many buildings are demolished and removed, 
the history of the scientific and engineering achievement at 
the birth of the atomic age must be preserved.
    Mr. Chairman, there is much more to my testimony, but my 
clock is running out. Do you have a copy of this? I hate this 
light, by the way.
    [The prepared statement of Mr. Young follows:]
      Prepared Statement of The Honorable Steve C. Young, Mayor, 
                     City of Kennewick, Washington
    Mr. Chairman and Members of the Committee:
    I thank you for inviting me to testify on H.R. 1208, a bill to 
establish the Manhattan Project National Historical Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico, and Hanford Washington. I also would 
like to thank Chairman Doc Hastings, Representatives Ben Ray Lujan, and 
Chuck Fleischmann for co-sponsoring this bill.
    I am Steve Young, Mayor of the City of Kennewick, Washington, 
speaking in favor of H.R. 5987 on behalf of the Tri-Cities Community in 
Washington State, and in support of community organizations in Oak 
Ridge, Tennessee and Los Alamos, New Mexico. All three of our 
communities have passed resolutions supporting the Manhattan Project 
National Historical Park, and we have been united in our support of 
this bill.
Support for H.R. 5987
    It is easy for those of us who live in the communities of Oak 
Ridge, Los Alamos and the Tri-Cities to say that the Manhattan Project 
changed the world.
    On August 13, 1942 the Manhattan Project was established under the 
command of Colonel Leslie R. Groves. Three years and 1 day later, 
August 14, 1945, the War was done!
    In between those dates, more than 100,000 men and women were 
brought to these three sites from all over the world. The majority of 
these young men and women had no idea what they were building.
    At Hanford more than 2,000 residents--mostly farmers--were given 
just days to weeks, to move off their land. This included moving, 
getting rid of thousands of animals, all the farm equipment and most 
importantly closing schools and moving families--lock-stock-and barrel!
    Once the land was acquired by the Government, the workers had to be 
found--engineers, physicists, chemists, carpenters, electricians, iron 
workers, cement masons and a multitude of office workers, cooks, 
guards, and truck drivers. Then these same individuals first had to 
build their own town with dormitories, mess halls, water, sewer, roads 
and railroads. This had to be done BEFORE they could start construction 
on reactors, nuclear fuel manufacturing and chemical separations. At 
Hanford the construction camp quickly became the third largest town in 
the State of Washington, with 50,000 construction workers.
    Hanford construction stretched the imagination. Housing for 50,000 
men and women; 386 miles of highway (including Washington State's first 
four-lane highway); 780,000 yards of concrete, and 158 miles of 
railroad track.
    All of this was done without the aid of computers! These were the 
days of slide-rules and hand-crafted blueprints!
    Equipment, electronics and piping could not be bought off-the 
shelf. For the most part everything had to be fabricated on the Hanford 
site.
    B Reactor itself, the world's first full-scale nuclear reactor, was 
built in just 11 months start-to-finish. The design was based on the 
success of Enrico Fermi's ``Chicago Pile 1;'' and a pilot plant, the X-
10 graphite reactor located in Oak Ridge, Tennessee. B Reactor was 
designed to produce 250 million watts; a million times more powerful 
than Chicago Pile 1, which produced the first ever sustained nuclear 
fission chain reaction under the bleachers at the University of 
Chicago's Staff Field in December of 1942.
    Most of the workers brought in to these three sites were among the 
most talented in their respective fields; whether it was physics, or 
pipefitting. While we recognize the names of Enrico Fermi, J. Robert 
Oppenheimer and Hans Bethe; we also need to give recognition to 
individual workers, many of whom stayed on the job and in these 
communities after 1945.
    These are engineering feats and accomplishments that must be told 
to future generations! And, it needs to be told before all of the 
``old-timers'' are gone.
    As these three sites in Oak Ridge, Los Alamos and Hanford are being 
cleaned up, and many buildings are demolished and removed; the history 
of scientific and engineering achievement at the birth of the Atomic 
Age must be preserved.
    The National Park Service, as it does with all of its sites, 
interprets the sites, and attempts to address ALL viewpoints to give a 
full and fair picture. We support such actions. This will not be a park 
that gives just a nuclear weapons viewpoint. We believe it is more 
about the thousands of men and women who built buildings, equipment and 
processes that became a turning point in the history of the United 
States. The science of the Manhattan Project has transformed 
contemporary society with significant contributions in fields such as 
nuclear medicine, industrial isotopes, and nanotechnology. This 
historic park will tell all sides of the story of what occurred at Oak 
Ridge, Los Alamos and the Hanford/Tri-Cities area, as was identified in 
the National Park Service Special Resource Study released last year.
    Our three communities have collectively worked toward this 
legislation for more than 3 years. Within the Tri-Cities an ad-hoc 
group of TRIDEC, the Visitor & Convention Bureau, B Reactor Museum 
Association and Hanford Communities led the charge. In this process, we 
not only partnered with each other, but we also worked closely with the 
Department of Energy, the Department of the Interior, the Energy 
Communities Alliance, the Atomic Heritage Foundation, the National 
Parks Conservation Association, State Historical Preservation Officers, 
and the National Trust for Historic Preservation.
    There is no question in our minds of the importance of creating 
this new national park, nor of the public interest to view these former 
``secret'' sites.
    At Hanford, DOE hosted 8,000 visitors to B Reactor last year. These 
visitors came from all 50 States, and from 48 foreign countries. These 
numbers were the result of only ONE announcement by DOE that 8,000 
seats to B Reactor would be open to the public last summer. The tours 
filled in less than 5 hours. Last year DOE increased the number of 
seats to 10,000. Unlike the National Park Service, DOE (except for one 
single public announcement) does not advertise its tours.
    These visitor numbers also clearly demonstrate that designating 
these three sites as the Manhattan Project National Historical Park 
will create jobs and provide an economic development benefit for all 
three communities. Such designation will come at a time when all three 
sites are seeing downturns in Federal employment as these sites are 
being cleaned up. Cleaning up these sites, and opening them to public 
viewing is of major importance to three communities that have been 
supporting national missions since 1943.
    The Manhattan Project National Historical Park at Oak Ridge, Los 
Alamos and Hanford is critical to the preservation of one of our 
Nation's most historic events of the 20th Century.
    Our Tri-Cities community encourages you to move forward with this 
legislation. We have unanimity with our sister communities in Oak Ridge 
and Los Alamos that the Park should be established in the near term in 
order to honor our Manhattan Project and Cold War veterans.
    We urge Congress to pass this National Park legislation.
                                 ______
                                 
    Mr. Hastings. Well, I thank the gentleman. As I said, your 
full statement will appear in the record, and thank you very 
much for your testimony.
    Next, we go over to Mayor Beehan from the City of Oak Ridge 
Tennessee. Mayor?

        STATEMENT OF THE HON. THOMAS L. BEEHAN, MAYOR, 
  CITY OF OAK RIDGE, TENNESSEE, CHAIRMAN, ENERGY COMMUNITIES 
                            ALLIANCE

    Mr. Beehan. Chairman Hastings and members of the Committee, 
I want to thank you for allowing me to testify on H.R. 1208. I 
would also like to thank the co-sponsors of this bill, 
yourself, Chairman Hastings, Rep. Fleischmann and Rep. Ben Ray 
Lujan.
    I have provided the Committee with a copy of my written 
comments. I am Tom Beehan, the Mayor of Oak Ridge, Tennessee 
and I am Chairman of the Energy Community Alliance. Our members 
include local governments and other community organizations 
from Oak Ridge to Los Alamos and the Tri-Cities area. The 
testimony I will present to you today is on behalf of the City 
of Oak Ridge in conjunction with the Energy Community Alliance; 
but, I would also like to recognize many of the Energy 
Community Alliance elected officials and partners who are here 
today in the room and thank them for their support--glad 
they're here.
    First and most importantly I would like to stress that our 
three communities are united in support of the passage of this 
bill to establish the three-unit National Historical Park in 
Tennessee, New Mexico and Washington. There is also bipartisan 
support for this bill in the House and the Senate, and our 
communities have been working for many years to preserve the 
history of the Manhattan Project at our sites, and we feel that 
now is the time to pass a bill that will lead to the 
establishment of a national historical park. It is easy for 
those of us who lived there in these communities to support the 
Manhattan Project before it changed the world. It began in 
great secrecy in 1942 and the original mission was established 
and completed in August of 1947--I'm sorry--August of 1945 when 
the Japanese surrendered.
    The Manhattan Project is an incredible story and deserves 
to be preserved and told. Let me be clear, however, and the 
interpretation of these sites will be about giving current and 
future generations an understanding of this indisputable 
turning point in American and indeed world history. Despite 
what some detractors may claim, this is not a park about 
weapons. I believe this is a historical park about scientific, 
energy and engineering accomplishments at a time when our 
country was defending itself, both during World War II and the 
cold war. This historic park will tell all sides of the story 
at what occurred at Oak Ridge, Los Alamos and the Tri-Cities, 
and it has been identified in a National Park Service Special 
Resource Study.
    The National Park Service interprets all sites and attempts 
to address all viewpoints to give a full and fair picture, and 
we support these actions. According to the National Park Study, 
cultural resources associated with the Manhattan Project are 
not currently represented in the National Park System and 
comparably managed areas are not protected. Further, including 
the Manhattan related sites in the National Park System will 
provide for comprehensive interpretation and public 
understanding of this nationally significant story.
    Last year, the ECA sponsored a trip to the Hanford site. 
Our group toured the B Reactor in the world's first scale 
production nuclear reactor. When visiting the B Reactor, one 
really gets an appreciation for the potential of the site to 
attract thousands of visitors a year. Already, a few public 
tours are available for the B Reactor, and they fill up almost 
immediately. In Oak Ridge we also have assets that are open to 
visitors who want to get a glimpse of what life was like behind 
the gate.
    In 2011 around 8,000 people visited the graphic reactor at 
ORNL, and close to 5,000 people came through the Y-12 New Hope 
Center. Additional special tours are held each year during the 
secret city festival, which attracts between 20,000 to 30,000 
people. The historic, Alexander and key community asset is 
being restored in the original town site of Oak Ridge. In Los 
Alamos, the industrial laboratory work, such as the Gun Site 
and the Little Boy are also there and can be visited.
    Time is running out, so I am going to jump. The Manhattan 
Project National Park is needed to preserve the history of the 
most significant event in the 20th century. As you proceed, we 
ask you to consider the following recommendations. Establish 
the park to honor our veterans who are still with us; protect 
the ongoing mission of DOE; authorize user entrance fees; 
donation authority should be broad. All inclusion of Nationally 
significant sites: We need to be flexible to permit the 
National Park Service to work with our communities to be able 
to add sites that are nationally significant and suitable for 
inclusion in the Park.
    Thank you for allowing me to testify.
    [The prepared statement of Mr. Beehan follows:]
 Prepared Statement of The Honorable Thomas L. Beehan, Mayor, City of 
      Oak Ridge, Tennessee, Chairman, Energy Communities Alliance
    Chairman Bishop, Ranking Member Grijalva and members of the 
Committee, I thank you for inviting me to testify on H.R. 1208, a bill 
To Establish the Manhattan Project National Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico, and Hanford, Washington, and for 
other purposes. I would also like to thank the co-sponsors of this 
bill: Representative Doc Hastings, Representative Chuck Fleischmann and 
Representative Ben Ray Lujan. I am Tom Beehan, the Mayor of the City of 
Oak Ridge, Tennessee and the Chairman of the Energy Communities 
Alliance (ECA), the association of local governments that are adjacent 
to, impacted by, or support Department of Energy (DOE) activities. Our 
members include local governments and other community organizations 
from the Oak Ridge, Los Alamos and the Tri-Cities (Hanford) areas, and 
all three communities have passed resolutions supporting the Manhattan 
Project National Historical Park. The testimony I will present to you 
today is on behalf of the City of Oak Ridge in conjunction with the 
Energy Communities Alliance.
The City of Oak Ridge and the Energy Communities Alliance Support the 
        Bill To Establish the Manhattan Project National Historical 
        Park in Oak Ridge, Los Alamos and Hanford
    First, and most importantly, I would like to stress that all three 
of our communities are united in our support for the passage of this 
bill to establish a 3-unit National Historical Park in Tennessee, New 
Mexico and Washington. There is also bi-partisan support for this bill 
from the Senators and Members of Congress from all three of our States. 
Our communities have been working for many years to preserve the 
history of the Manhattan Project at our sites, and we feel that now is 
the time to pass a bill that will lead to the establishment of a 
National Historical Park. In addition, there is support for both bills 
among the State and local elected officials, historic preservation 
organizations, National Park Service officials, Department of Energy 
officials, business leaders, environmental cleanup advocates, chambers 
of commerce, museum officials, librarians and many others.
    Among the biggest advocates of the National Historical Park are the 
people who worked at the three sites during World War II. It is 
important to remember that no one in our country knew what the workers 
were building at the sites--they were truly ``Secret Cities.'' Most of 
the young men and women working in these communities did not even know 
what the project was. These were among the nation's best and brightest 
citizens from all walks of life.
    National Historical Parks are developed to ensure that we preserve 
our country's assets and open them to the public to learn about our 
Nation's history. We should work to open this park while some of the 
Manhattan Project Veterans are still alive and able to see their work 
recognized by our Nation. These people played a valuable role in ending 
World War II and defending not only the United States but also 
democracies throughout the world. They are every bit as important to 
telling the story of the Manhattan Project as are our buildings and 
equipment. These true heroes, who dedicated their wartime service to 
the Manhattan Project, appreciate the legislation developed by your 
committee.
The Important History of the Manhattan Project Sites Must Be Preserved
    As an expert panel of historians reported in 2001, the top-secret 
Manhattan Project program during World War II, centered in Los Alamos, 
NM, Oak Ridge, TN, and Hanford, WA, has been called ``the single most 
significant event of the 20th century.'' Operating from December 1942 
until September 1945, the Manhattan Project was a $2.2 billion effort 
that employed 130,000 workers at its peak, but was kept secret and out 
of public view.
    It is easy for those of us who live in the communities of Oak 
Ridge, Los Alamos and the Tri-Cities to say that the Manhattan Project 
changed the world. The Manhattan Project began in great secrecy in 
1942, and the original mission was essentially completed by August of 
1945 when the Japanese surrendered. The engineering and construction 
feats of the more than 100,000 men and women who were brought to these 
three sites from all over the world to build and operate first-of-a-
kind nuclear plants, is an incredible story that deserves to be 
preserved and told.
    On August 13, 1942 at the direction of FDR, the Manhattan Engineer 
District was established under the command of Colonel Leslie R. Groves. 
By September of 1942 Groves selected Oak Ridge, Tennessee as the site 
for uranium isotope separation. In November 1942 Los Alamos was chosen 
as the laboratory to build the integral parts, under the direction of 
J. Robert Oppenheimer. And in January 1943 Hanford was selected for 
plutonium production. In 1945, just three years after the start of the 
project, the war with Japan was over. This was an incredible wartime 
achievement.
    In today's world, it is mind-boggling to think of what happened in 
these 3 short years. First, the actual land had to be acquired and 
existing homes and landowners had to be relocated. Then, workers of all 
types had to be recruited--engineers, physicists, chemists, 
mathematicians, as well as carpenters, electricians, iron workers, 
cement masons, and a multitude of office workers, cooks, guards and 
truck drivers. These individuals had to first build their own towns 
with dormitories and barracks, mess halls, utilities, roads, railroads, 
and even shower houses. Now almost 70 years later, these sites are 
being reindustrialized, and many ancillary buildings have been 
demolished and removed. The history of these human scientific and 
engineering achievements at the birth of the Atomic Age must be 
interpreted and preserved.
    Let me be clear, interpretation at these sites will be about giving 
current and future generations an understanding of this indisputable 
turning point in American, and indeed world history. Despite what some 
detractors may claim, this is not a park about weapons. I believe this 
Historical Park is about the feats of scientific and engineering 
accomplishments developed at a time when our country was defending 
itself, both during World War II and the cold war. The construction and 
operation of the first generation reactors in total secrecy was an 
astounding development. Now, the science of the Manhattan Project has 
transformed contemporary society with significant contributions in 
fields such as nuclear medicine and nanotechnology. This Historical 
Park will tell all sides of the story of what occurred at Oak Ridge, 
Los Alamos and the Tri-cities, as has been identified in the National 
Park Service Special Resource Study released in 2011. The National Park 
Service interprets all sites and attempts to address all viewpoints to 
give a full and fair picture, and we support such actions. Most 
importantly, the Park will tell one of the most important stories of 
how Americans from all walks of life came together, formed a community, 
and dedicated themselves to protecting all that we hold dear in this 
country.
Background of Legislation
    The National Park Service, at the direction of Congress, conducted 
a special resource study on several Manhattan Project sites for 
possible inclusion in the National Park System. The study recommends 
that the best way to preserve and interpret the Manhattan Project is 
for Congress to establish a national historical park at the three sites 
where a majority of the key scientific activity associated with the 
project occurred: Los Alamos, Oak Ridge and Hanford. The study 
acknowledged the significant Department of Energy investment in 
preservation of its assets, which played a role in the Park Service 
recommendation to proceed with a park designation. The DOE support 
provides the foundation for National Park Service interpretation of 
these assets for the public to see.
    According to the National Park Service study, ``Cultural resources 
associated with the Manhattan Project are not currently represented in 
the national park system, and comparably managed areas are not 
protected . . . the comprehensive story of the nationally significant 
Manhattan Project is not told anywhere . . . Including Manhattan 
Project-related sites in the national park system will provide for 
comprehensive interpretation and public understanding of this 
nationally significant story in 20th century American history.''
Oak Ridge, Los Alamos, the Tri-Cities Communities Are Committed To 
        Working Together To Establish a National Historical Park
    Since the Department of Interior's final study and recommendation 
was announced in July 2011, our State, city and county officials, 
business leaders, historical societies and groups, various community 
groups and individuals in our communities and throughout the country 
have been working diligently with you and your staffs to support this 
legislative process; and we come here to support the legislation 
introduced in both the Senate and the House.
    Many of us participated in Energy Communities Alliance ``Peer 
Exchange'' meetings in Richland, Washington and in Los Alamos, New 
Mexico to discuss many of the issues surrounding the establishment of a 
National Historical Park at our sites. Our organization plans to visit 
Oak Ridge, Tennessee this year to discuss the topic further. At these 
meetings, all the participants stressed the need to work together to 
get this park established. The three communities have not only 
partnered together to work on this important initiative, but we have 
also worked with DOE, the Department of the Interior, State Historical 
Preservation Officers, The National Trust for Historic Preservation, 
the National Parks Conservation Association, the Atomic Heritage 
Foundation and many others to support the establishment of a National 
Park Unit at ours sites.
    While in Richland, our group toured the B Reactor, the incredible 
engineering accomplishment that is the world's first full scale 
production nuclear reactor. The B Reactor was built in just 11 months. 
The design was based on the success of Enrico Fermi's ``Chicago Pile 
1'' and a pilot plant, the X-10 Graphite Reactor, located at what is 
now the Oak Ridge National Laboratory. This tour provided the potential 
experience that a visitor to a National Park would have when visiting 
the site, and the National Park Service has not even started their 
interpretative work. When visiting the B Reactor, one really gets an 
appreciation for the potential of the site to attract thousands of 
visitors a year. Already the few public tours that are available for 
the B Reactor fill up almost as soon as they become available. Last 
year, more than 8,000 seats were filled in less than 5 hours. This year 
more than 10,000 people will go on the tour. The B Reactor has had 
visitors from all 50 States and 48 countries.
    Oak Ridge has many assets that are open to visitors and community 
members who want to learn more and get a glimpse of what life was like 
``behind the gate''. The Department of Energy Facilities Public Bus 
Tours, held from June through August each summer, highlight the 
Graphite Reactor at the Oak Ridge National Laboratory, the New Hope 
Center at Y-12, the DOE operated American Museum of Science and Energy, 
and portions of the City of Oak Ridge, where housing and other 
structures from the Manhattan Project era remain. In 2011, around 8,000 
people visited the Graphite Reactor at ORNL and close to 5,000 people 
came through the Y-12 New Hope Center. Additional special tours of 
these facilities, along with the Y-12 facility are held each year 
during the ``Secret City Festival,'' which attracts between 20,000-
30,000 people. These tours are one of the most popular events during 
the festival weekend and over 700 people recently participated in the 
tour in a single day. The historical Alexander Inn Guest House, a key 
community asset, is being restored in the original townsite of Oak 
Ridge.
    In Los Alamos, our group got to tour the site where the industrial 
work at the laboratory was on a smaller scale than at Oak Ridge or 
Hanford. Properties, such as the Gun Site, where the work on Little Boy 
was done, and at the V Site, where work on the ``Gadget'' was 
accomplished, allowed us to get a sense of the ``can-do'' spirit of the 
scientists and technicians who had to make do in make-shift buildings 
with some rather creative equipment. We are confident the Department of 
Energy and Department of the Interior can work out visitor access 
issues to these sites. At the same time, in the Los Alamos' historic 
center, visitors can walk the same paths as the giants of 20th century 
physicists, and see the homes where J. Robert Oppenheimer, Hans Bethe, 
and other talented scientists once lived and socialized.
Recommendations
    The Manhattan Project National Historical Park is needed to 
preserve the history of the most significant event of the 20th century. 
As you proceed, we ask that you consider the following recommendations:

    <bullet>  Establish the Park Now to Honor Our Manhattan Project 
Veterans. There is unanimity among the three communities that the Park 
should be established in the near term in order to honor our Manhattan 
Project and cold war veterans.
    <bullet>  Protect ongoing Missions of DOE. We support legislative 
language that protects the ongoing missions of DOE, and recognize the 
need for appropriate flexibility in the partnership among the 
stakeholders.
    <bullet>  Authorize User/Entrance Fees. Although the legislation 
should recognize DOE's responsibility to maintain its assets, 
authorization for a modest entry/user fee should be included to assist 
in the long term stewardship of non-DOE-owned assets.
    <bullet>  Donations authority should be broad. We want to ensure 
that the National Park is permitted to accept both personal property 
and financial donations to support the park and the tours of the sites.
    <bullet>  Allow inclusion of Nationally Significant Sites. We need 
flexibility to permit the NPS to work with communities to be able to 
add sites that are nationally significant and suitable for inclusion in 
the Historical Park.
Conclusion
    In closing, we believe the proposed Historical Park will serve as a 
21st century model for the National Park Service, or as the National 
Park Service study calls it ``A new innovative Manhattan Project 
National Historical Park,'' one that is based on Federal, State and 
community partnerships. We look forward to working with you, and urge 
that this Congress pass this National Park legislation. The City of Oak 
Ridge supports this important legislation H.R. 1208. We thank you and 
the full committee for your leadership and support.
                                 ______
                                 
    Mr. Hastings. Mayor Beehan, thank you very much for your 
testimony.
    And, last, and certainly not least, Fran Berting, who is 
the County Councilor for the County of Los Alamos in New 
Mexico, as I mentioned in my introduction of former residents 
of the Tri-Cities.

 STATEMENT OF FRAN BERTING, COUNTY COUNCILOR, THE INCORPORATED 
                COUNTY OF LOS ALAMOS, NEW MEXICO

    Ms. Berting. Thank you, Mr. Chairman, and good morning, 
Chairman Hastings.
    Mr. Hastings. Can you move that microphone a little bit 
closer to you?
    Ms. Berting. Is that better?
    Mr. Hastings. That's better. Thank you.
    Ms. Berting. OK. Very good.
    Well, good morning, again, Chairman Hastings and Ranking 
Member Grijalva and distinguished members of the Committee. I 
would like, first of all, to thank the co-sponsors of bill H.R. 
1208, Rep. Ben Ray Lujan, yourself Rep. Doc Hastings, and Rep. 
Chuck Fleischmann.
    I am Fran Berting, County Counselor for the incorporated 
county of Los Alamos, and Treasurer of the Energy Community 
Alliance, also representing ECA. I am presenting this testimony 
on behalf of the County of Los Alamos and Los Alamos Historical 
Society, both of which heartily support H.R. 1208.
    The key points of my testimony are: (1) the Manhattan 
Project was one of the most significant historical events of 
the 20th century, if not the most significant, considering its 
worldwide ramifications; (2) throughout northern New Mexico 
there is broad support to establish a national park unit in Los 
Alamos, our County and many other groups have been working 
cooperatively to bring about the legislation in the 
establishment of the park; (3) the park will have a positive 
economic impact on the region in addition to the tourism; and 
(4) for a park to be born, we need legislation, and legislation 
that allows for partnerships among Federal agencies, community 
groups, individuals and others.
    At its heart, the story of the Manhattan Project is an 
amazing episode of our Nation's history and that of the world. 
It brought together the brightest scientists, many of them 
immigrants who came to this country seeking freedom. They face 
pressures to end World War II by creating something that had 
only existed in theory. The story of making theory, of taking 
theory to the instrument that brought the war with Japan to an 
end must be told. Tied together under the auspices of a 
national park, the Manhattan Project industrial sites in Los 
Alamos, Oak Ridge and Hanford, along with the places where 
soldiers and scientists lived and formed communities, will 
create a full picture of the history.
    In some we look forward to sharing our stories with the 
many visitors a national historical park will bring. These 
stories will benefit from the balanced interpretation provided 
by the National Park Service. We are heartened to see the 
Department of Energy working with the Department of the 
Interior and many other partners to make this world changing 
history accessible. So we thank you for your leadership and 
support, and thank you, Mr. Chair, for the opportunity to 
testify.
    [The prepared statement of Ms. Berting follows:]
Prepared Statement of Fran Berting, County Councilor, The Incorporated 
                    County of Los Alamos, New Mexico
    Chairman Bishop, Ranking Member Grijalva and Members of the 
Committee, I thank you for inviting me to testify on H.R. 1208, a bill 
To Establish the Manhattan Project National Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico, and Hanford, Washington, and for 
other purposes. I would also like to thank the co-sponsors of this 
bill: Representative Ben Ray Lujan, Representative Doc Hastings, and 
Representative Chuck Fleischmann. I am Fran Berting, and I serve as a 
County Councilor for the Incorporated County of Los Alamos. I will 
present this testimony on behalf of the Incorporated County of Los 
Alamos in conjunction with the Los Alamos Historical Society.\1\ Both 
the Incorporated County of Los Alamos and the Los Alamos Historical 
Society support H.R. 1208.
---------------------------------------------------------------------------
    \1\ The Los Alamos Historical Society is a non-profit organization 
whose mission is to preserve, promote, and communicate the remarkable 
history and inspiring stories of Los Alamos and its people for our 
community, for the global audience, and for future generations. Among 
its many activities, the Historical Society operates the Los Alamos 
Historical Museum and owns, in a life trust, the World War II home of 
Dr. J. Robert Oppenheimer, scientific director of the Manhattan 
Project. As the owner of this home in the Los Alamos Historic District, 
the Historical Society is the property owner within the potential 
boundary of the park. Additionally, helping to establish the Manhattan 
Project National Historical Park is one of seven planks the Historical 
Society's strategic plan.

---------------------------------------------------------------------------
    The key points of my testimony are:

    1. The Manhattan Project has been described as one of the most 
significant historical events of the 20th century and therefore the key 
sites at Los Alamos, Oak Ridge and Hanford should be preserved in a 
National Historical Park.
    2. Throughout northern New Mexico, there is broad support to 
establish a National Park unit at Los Alamos. Our County and many other 
groups have been working cooperatively to support this legislation and 
the establishment of the Manhattan Project National Historical Park.
    3. Establishment of a National Park unit at Los Alamos will have a 
positive impact on the citizens and economy of northern New Mexico.
    4. For a Manhattan Project National Historical Park to be 
successful, we need legislation that allows for partnerships among 
Federal agencies, community groups, individuals and others.
Due to Their Historical Significance, the Manhattan Project Sites 
        Should Be Preserved in a National Historical Park
    Historians have called the Manhattan Project the most significant 
undertaking of the 20th century. Employing hundreds of thousands at its 
peak, located in widely scattered, secret communities, the project 
brought an end to World War II and ushered in the atomic age. The 
Incorporated County of Los Alamos is pleased to support H.R. 1208, a 
bill to establish the Manhattan Project in Oak Ridge, Tennessee, Los 
Alamos, New Mexico and Hanford, Washington.
    At its heart, the story of the Manhattan Project is an amazing 
episode of our great Nation's history. It brought together the 
brightest scientists, many of them immigrants who came to this country 
seeking freedom. They faced pressure to end the world's most horrible 
war by creating something that had only existed in theory. The 
Manhattan Project is a story about young people with a can-do spirit 
who brought about a great technological achievement. It is the story of 
unleashing a mysterious force of nature and of fostering fear and 
uncertainty about the future of humankind. It is a story about 
creativity. It is a scientific story, a soldier's story, a spy story, 
and a human story. The story of the Manhattan Project is one that, from 
the perspectives of all who participated and all who were affected, 
must be told.
    The County and the Historical Society fully support this bill's 
efforts to ``enhance the protection and preservation of such resources 
and provide for comprehensive interpretation and public understanding 
of this nationally significant story in 20th century American 
history.''
    Tied together under the auspices of a national park, the Manhattan 
Project industrial sites in Los Alamos, Oak Ridge, and Hanford, along 
with the places where soldiers and scientists lived and formed 
communities, will create a full picture of the history.
    Some critics have said that a national park dedicated to the 
Manhattan Project will glorify the atomic bomb or create a theme park 
for weapons of mass destruction. We disagree. The National Park 
Service, of all government agencies, is the most trusted for telling 
complete stories from all sides--the good and bad, the painful and the 
poignant. Parks and monuments that commemorate battles or massacres do 
not celebrate ugly moments in American history. They teach about them; 
they help us, as a nation, to reflect and learn. The Nation needs to 
understand the Manhattan Project from all sides.
There is Broad Support for This Bill Throughout Los Alamos County and 
        Our Region
    In 2007, recognizing the impact of a possible national park on our 
community, our County Council appointed an ad hoc committee to 
determine what such a park might look like in Los Alamos. The details 
of the committee recommendations are attached to this testimony as 
``Attachment A.'' In summary, the committee envisioned a downtown 
national park visitor center where guests would learn about the 
Manhattan Project and then be sent to existing venues to learn more, a 
recommendation the National Park Service adopted in its final report to 
Congress.
    The communities called out in this legislation--Los Alamos, Oak 
Ridge, and Hanford--fully support this park. In 2008, the ad hoc 
committee held public meetings in Los Alamos as well as meetings with 
potential partners, from tour guides to the nearby pueblos. After some 
initial--and false--concern that the park service might take over the 
iconic Fuller Lodge in downtown Los Alamos as a park headquarters was 
resolved, the community came out fully in support of the park. The 
County Council passed a resolution to that effect in February 2010 (see 
``Attachment B''). We have had several meetings with our counterparts 
in Hanford and Oak Ridge to discuss park possibilities. In short, we 
are excited about this park and are happy to assist the Department of 
the Interior, the Department of Energy, Los Alamos National Laboratory, 
and others to make it happen. We believe it will be a benefit not only 
to Los Alamos but to nearby communities, as well.
A Manhattan Project National Historical Park Unit at Los Alamos Will 
        Provide Economic Benefits to Northern New Mexico
    With, by the Park Services own estimate, hundreds of thousands of 
additional annual visitors the Manhattan Project National Historical 
Park will provide economic benefits to northern New Mexico. The region 
will need workers not only in tourism and service industries but in 
construction and other related industries to support the Park.
    As the ad hoc committee suggested, the story of the Manhattan 
Project isn't just about world-class scientists. The story includes 
people from the rural communities and pueblos surrounding Los Alamos, 
mostly Native Americans and Hispanics, who provided the backbone of a 
labor force that built and maintained the laboratories and facilities, 
cleaned the houses, and drove the trucks. The Manhattan Project forever 
changed rustic northern New Mexico. In fact, the Manhattan Project 
National Historical Park will, once again, transform these communities, 
creating an economic driver based on heritage tourism that provides 
jobs, educational opportunities, and improved futures to traditionally 
under-served communities.
Legislation Must Allow for Partnerships Among Federal Agencies, 
        Communities, Historical Societies and Other Interested 
        Organizations and Individuals
    Finally, we appreciate with enthusiasm the statement in Section 3 
of this bill that one purpose of the park is ``to assist the Department 
of Energy, Historical Park communities, historical societies, and other 
interested organizations and individuals in efforts to preserve and 
protect the historically significant resources associated with the 
Manhattan Project.'' Protecting these resources is something the Los 
Alamos Historical Society has been working on for nearly 50 years. 
Partnerships and cooperative agreements between Federal agencies, local 
governments, non-profit groups, and even private property owners will 
make this park happen, bringing together widespread resources for the 
benefit of our Nation as the Manhattan Project did years ago.
    Again, I urge you to view the recommendations from the ad hoc 
committee, specifically the section about partnerships. Manhattan 
Project resources, from museums to the laboratory and from tour guides 
to the famous ``gatekeeper'' office at 109 E. Palace Avenue in Santa 
Fe, are dispersed and disorganized when it comes to the theme of 
Manhattan Project history. The national park will bring these resources 
together, along with those of Hanford and Oak Ridge, for visitors to 
understand a bigger picture.
    We are also especially pleased to see in the final section of the 
bill that both the Department of the Interior and the Department of 
Energy will be able to accept monetary or service donations for the 
park. This is particularly important to restoration work at Los Alamos 
National Laboratory and will assist the lab in preserving a significant 
historic site. One individual has been waiting in the wings for years 
to donate to the site's restoration but has had no mechanism for giving 
the money. The park will allow this preservation project to take place.
Conclusion
    In sum, we look forward to sharing our stories with the many 
visitors a national historical park will bring in addition to sharing 
our resources with the National Park Service to assist in creation of 
the park. Along with many community partners who have worked on this 
project, the Incorporated County of Los Alamos in conjunction with the 
Los Alamos Historical Society supports the establishment of the 
Manhattan Project National Historical Park in order to preserve and 
teach this important history. We have also briefed the Regional 
Coalition of LANL Communities and they support our efforts. The park 
has tremendous support in our community. We believe it will have 
economic benefit to northern New Mexico. We are heartened to see the 
Department of Energy willing to work with the Department of Interior 
and other partners to make this world-changing history accessible. We 
thank you for your leadership and support.

                              ATTACHMENT A

  Recommendations to the Los Alamos County Council From the Manhattan 
  Project National Historical Park (MPNHP) Ad Hoc Committee 04/02/2008

I. Purpose
    In 2004, Congress approved and the President signed legislation 
directing the NPS to conduct a special resource study to determine the 
national significance, suitability, and feasibility of designating one 
or more historic sites of the Manhattan Project for potential inclusion 
in the National Park System. This park could include non-contiguous 
sites in Los Alamos, Oak Ridge, Hanford, and Dayton. The NPS held 
meetings in each of the communities during the spring and summer of 
2006 to gather public input.
    In August 2007, Los Alamos County Council approved the 
establishment of an ad hoc committee to help determine what the 
proposed non-contiguous Manhattan Project National Historical Park 
might look like in Los Alamos. This committee is comprised of 
representatives involved in historic preservation and tourism from 
throughout the community, including Los Alamos National Laboratory 
(LANL). After approval by Council, the committee will present its plan 
to NPS representatives when they come to Los Alamos for a second round 
of community meetings in 2008.
II. Committee Conduct
    The committee began meeting bi-weekly in August 2007 and discussed 
several ideas, such as what ``attractions'' might be included in a 
national park and who locally might participate. These ideas were 
expanded upon and refined over time. A great deal of Manhattan Project 
history has already been preserved in our community in places such as 
the Los Alamos Historical Museum, the Bradbury Science Museum, and the 
Oppenheimer House. The committee members do not believe that the NPS 
needs to ``reinvent the wheel.''
    In October, the committee took a special ``behind the fence'' tour 
of sites at LANL which may be included in the park, either as part of 
periodic tours or which may be open to more public access in the 
future.
    On Nov. 6 and 9, the committee held meetings by invitation and word 
of mouth for potential partners in the park. Approximately 15 people 
attended the first meeting and 10 attended the second. At both 
meetings, ad hoc committee members shared their vision for the park 
site (see III. below) Most of these potential partners were intrigued 
with the idea of a Manhattan Project National Historical Park within 
the community and looked forward to getting more information from the 
NPS.
    On November 13, the committee held an advertised public meeting in 
Fuller Lodge to discuss this vision for the park. Another 15 people 
attended and added to the committee's ideas.
    Based on input from these meetings, the committee has refined its 
vision and proposes the following:
III. Park Vision
    A. Centralized Park Headquarters: At a central Visitor Center, 
which would include information and interpretation, a Park Ranger would 
greet visitors, tell them about the National Park and then direct them 
to other sites in the area where they would be able to see tangible 
historical sites and objects from the Manhattan Project (Ashley Pond, 
Lamy Train Station) as well as interpretation and information that is 
already taking place in the community (LA Historical Museum, Bradbury 
Science Museum).
B. Tours
    a. Guided and Self-Guided: These would include ranger-guided 
walking tours through the downtown historic district and other sites; 
driving and walking audio tours; as well as guided tours that would 
show visitors accessible areas of LANL, historic downtown, the old Main 
Gate location, and other sites.
    b. LANL: With approval and coordination of LANL and the Department 
of Energy officials, periodic ``Behind the Fence Tours'' to V-Site, Gun 
Site, and other restored Manhattan Project-era buildings, similar to 
the tours held at Trinity Site.
C. Partners
    Potential partners in this project are those who own, maintain or 
have some other association (such as tourist services or items) with 
tangible historical objects or buildings from the Manhattan Project--
something that will enhance visitors' experiences and increase their 
understanding of this time in history. The lists below are not all-
inclusive.
D. Potential Themes of Interpretation
    1. People/Social History
        a. Scientists and their families
        b. Military
            i. In Los Alamos (SEDs, MPs, etc.)
            ii. In the Pacific, including POWs
        c. Local Pueblo and Hispanic populations whose lives were 
        affected and who were an essential part of the project (stet)
        d. Local historical figures such as Edith Warner, Dorothy 
        McKibbin, Evelyn Frey
        e. Stories of people affected by the bombings, both American 
        and Japanese
        f. Responses to the bomb
    2. Science
        a. Bradbury Science Museum
    3. Impacts
        a. Science
        b. Northern New Mexico
        c. Military
        d. International Relations
        e. Cold War
        f. Environmental/Health
        g. Government
            i. Civilian control of nuclear resources (AEC, DOE)
            ii. The growth of government-run, multi-disciplinary 
            science labs
    4. Growth of the town of Los Alamos
    5. What happened to people after the war?
E. Potential Visitor Sites
    1. Local
        a. The Los Alamos Historical Museum
        b. The Bradbury Science Museum
        c. Oppenheimer House
        d. Ashley Pond
        e. Ice House Memorial
        f. Fuller Lodge
        g. Historic Walking Tour of Bathtub Row
        h. Periodic ``Behind the Fence'' Tours to V-Site, Gun Site, and 
        other restored Manhattan-era buildings at LANL
        i. Unitarian Church (former dorm)
        j. Little Theater (former Rec Hall)
        k. Christian Science Church (former dorm)
        l. Hill Diner (WWII-era building)
        m. Main Hill Road/Main Gate area
        n. Last Sundt apartment building in Los Alamos (Dentist office 
        on Trinity)
        o. Crossroads Bible Church (WWII-era Theater)
    2. Nearby
        a. Bandelier National Monument
        b. Pajarito Mountain Ski Area
        c. Valles Caldera
        d. Otowi Bridge
        e. Sundt apartments in Espanola on Railroad Avenue
    3. Santa Fe
        a. 109 E. Palace Ave.
        b. La Fonda
        c. Lamy Train Station
        d. Delgado Street Bridge and other spy-related sites
    4. Albuquerque
        a. Oxnard Air Field (Kirtland AFB)
        b. National Atomic Museum
    5. Future considerations
        a. Sculptures, outdoor art, and other monuments to the 
        Manhattan Project era that are currently under consideration
                                 ______
                                 
    Mr. Hastings. Thank you very much, Ms. Berting. I 
appreciate your testimony and I appreciate all of your 
testimony. I only have a few questions, and I'll recognize 
myself first.
    Mr. Knox, I mentioned in my opening statement that the bill 
did pass out of committee, but it failed under the procedural 
Rule getting two-thirds vote on the House. Part of that was the 
debate. I didn't agree with that portion of the debate that was 
opposed to it; and the portion of the debate I didn't agree 
with was that this legislation would glorify atomic weapons.
    Give me your thoughts on that observation.
    Mr. Knox. Yes. The National Park Service from our 
perspective; we don't see the purpose here at all to be 
glorifying nuclear weapons. It's about an event--the Manhattan 
Project--that changed the history of the United States and of 
the world. And telling that story, and telling all sides of 
that story, and we do that in the National Park System at other 
places.
    At Manzanar Internment Camp in California we tell the story 
of the Japanese Internment in World War II. At Andersonville in 
Georgia, we talk about that POW Camp that existed during the 
Civil War and the conditions that were there. At the Sand Creek 
Massacre site in Colorado we talk about the massacre of Indians 
during the 19th century. Those are not all events that we're 
entirely proud of as a nation, but they're events we need to 
learn from, and that's what we try and do from the National 
Parks, which is tell the whole story.
    Mr. Hastings. Well, I appreciate that, because I had a 
conversation with the member who is no longer here on that. I 
just respectfully disagreed with his position, but he made his 
position known; and, as a result, we didn't get the two-thirds 
vote at that particular time.
    I just want to mention Mayor Young pointed out how quickly 
this came together. To build a nuclear reactor in 11 months is 
absolutely remarkable. You couldn't do it today; and it was 
done then because we were in a war effort. And the only mission 
we have at Hanford right now is to clean up the legacy, and we 
are in defense production in Hanford until the late 1980s.
    But just to give you an idea of the complexity of building 
nuclear weapons and the process that goes in there, a lot of 
the waste, a majority of the waste, I should say, in developing 
these nuclear weapons, is stored now in Hanford in underground 
tanks. And you might have heard some of the tanks have leaked. 
We've known that, going back for some 30 years. But because 
they're underground, people have a hard time quantifying how 
much we're really talking about. And there's 53 million gallons 
of hazardous/radioactive waste that's stored underground at 
Hanford.
    To put it in a context that we all understand, if you were 
to put those 53 million gallons in a facility here that we all 
know about, like the House chamber, it would make up over 20 
House chambers. That's how much 53 million gallons is, and 
that's the legacy there that we need to clean up, and that's 
why Yucca Mountain is so important in this whole process, and 
that's why WIPP is important in New Mexico for this whole 
process.
    But over 20 House chambers of radioactive/nuclear waste is 
what is stored underground next to the Columbia River in my 
State of Washington. And that's why the clean-up of this is so 
important. But the legacy--let's not lose site of the legacy. 
The legacy was we didn't know if we were going to win that war. 
We thought that Nazi Germany was ahead of us, and we had to 
move as quickly as we possibly could in order to achieve what 
we did do. And, by the way, we won the Second World War and we 
won the cold war, largely, because of the efforts of these 
communities.
    At this time I recognize the distinguished Ranking Member 
of the Committee, Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman, and you 
asked the question that I was going to ask about the discussion 
last time and the debate last time over the glorification issue 
and the impact of what this program and what this designation 
meant. And I appreciate the answers that were just given to us.
    I thought I got caught up in that debate at a late moment 
when people weren't able to react to it and that it was also 
this legislation was caught up in a debate unrelated on another 
item unrelated to this issue. And I appreciate these answers 
about what the interpretation is and what it has been for the 
Park Service and all of its sites.
    Ms. Berting, if I may, last Congress, the New Mexico 
Historical Society, expressed concerns with language in the 
legislation and I have heard it from other witnesses: 
preventing the Park Service from using Federal funds for 
acquisition of additional property. This was particularly a 
concern around Los Alamos. Is that concern still a valid one 
with the society as far as you can relate to us?
    Ms. Berting. I haven't heard that particular argument, as a 
matter of fact. There were other concerns about whether the 
land to be acquired had permission from the landowner and that 
sort of thing. So I do think there is concern having to do with 
Federal dollars, particularly at this point, but that has not 
been raised as an issue against the park to my knowledge.
    Mr. Grijalva. OK. I appreciate that.
    Mayor Young, the Chairman began with the point you made 
about the storage of the nuclear waste. I think the article 
that appeared in the New York Times pointing out potential 
problems and consequences that resulted in those problems, and 
some of those consequences they pointed out were dire to say 
the least, at least in that article.
    Do we need to be concerned that the safety issues that are 
being talked about by that advisory committee on the waste 
treatment plant could impact visitors to the B Reactor?
    Mr. Young. Yes. That is an excellent question and it is a 
simple answer of no. We monitor those tanks daily by the hour; 
we know where the leaks are. We know where it is progressing. 
All of these tanks are underground. There is no impact to the 
air at all, and the travel between B Reactor and the old city 
site and Bruggemann Warehouse is all way outside of those tank 
farms. So there would be no threat to the public.
    In fact, we have had the public traveling in and out of 
there viewing these marvelous sites for quite some time now; 
but, no. We test the air daily. We know exactly what's out 
there and we have had no problems.
    Mr. Grijalva. Excuse me. You are talking specifically about 
the waste treatment plant. Correct?
    Mr. Young. Yes, the waste treatment plant. Yes, absolutely; 
so, we again, the National Park area itself would be quite a 
distance from the tank farms and it would also be a safe 
traveled area.
    Mr. Grijalva. Thank you very much. Mr. Chairman, I have no 
other questions other than a disagreement with your analogy 
example of taking all those barrels of waste, and it would be 
like 20 times the size of the House chamber, given, on 
occasion, the already radioactive quality to that chamber.
    [Laughter.]
    Mr. Grijalva. It might be creating some other situation 
that I wouldn't want to deal with, but with that I yield back.
    Mr. Hastings. Will the Chairman yield to me before?
    Mr. Grijalva. Absolutely.
    Mr. Hastings. Well, I would just say that perhaps there is 
some radioactivity on some sides of the House chamber and not 
on others, but I won't go into that detail.
    [Laughter.]
    Mr. Hastings. The gentleman's point is well taken.
    Mr. Grijalva. Thank you, sir.
    Mr. Hastings. The Chair recognizes the gentleman from 
California, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman, and thanks for 
allowing me to have a moment here; just a couple sentiments 
here. First, I thank the Chairman for finding this a creative 
way to make a good thing happen, and a good thing to 
acknowledge in our history. Not all of our parks get to 
acknowledge and remember good things in our past. This could be 
seen as a mixed bag in how our country came together in order 
to find a way to solve the war at that time.
    Again, that could be taken in a lot of ways, but it was 
certainly the country coming together doing a pretty amazing 
thing in that project. And so the Chairman's method here of 
something that would actually cost us a lot more to recover 
instead of making this an example of something that people can 
see as a tourist attraction and a learning experience.
    I read a lot about the Manhattan Project as a junior high 
kid when I read a lot about World War II as well, so I think it 
can be a great experience for us to know and understand, and 
something to think about in the future of why we don't want to 
use these in future conflicts. But I also appreciate Mayor 
Young's comment on the red lights here. I hate them in traffic, 
if you ever try and drive through this town or home. But 
they're the only way we can get anything done in this place, 
thankfully, especially when we are talking about member 
conversations.
    But I think this is a great measure here to have this bit 
of tourism and taking this asset, and have it be an asset 
instead of actually bear cost on recovery of what it would take 
to do the clean-up side, the recovery side. So I support what 
you're trying to do and appreciate your efforts, Mr. Chairman. 
So thank you. Thank you all for coming way out here and I 
appreciate you all doing this. Thank you.
    Mr. Hastings. The gentleman yields back. The gentleman from 
Northern Marianas, Mr. Sablan.
    Mr. Sablan. Well, thank you very much, Mr. Chairman, and 
good morning everyone.
    Mr. Chairman, I know how much effort you have given to H.R. 
1208, and I am sure we all recognize the historical 
significance of the Manhattan Project and the importance of 
protecting events associated with the development of the bomb. 
And so I fully support the bill, but the story of the atomic 
bomb will not be complete.
    In fact, the bomb would never have ended World War II in 
the Pacific without the contribution of those areas of our 
country where delivery was perfected and from where the bombs 
were launched against Japan. I am speaking of Wendover Air 
Force Base in Yucca, where Col. Paul Tibbets was school trained 
in the B29 super fortresses for their historic flights. And I 
am speaking of the air fields in the Northern Mariana Islands 
and final assembly where arming of this weapon took place. From 
here, the Enola Gay took off carrying the weapon that was 
dropped on Hiroshima, and later box car carrying the bomb to 
Nagasaki.
    Without the work that went on at this site in Utah and 
Northern Mariana Islands, all of the work on the Manhattan 
Project in Tennessee, New Mexico and Washington would not have 
had its intended effect. So I would simply like to note for the 
record, Mr. Chairman, that this Committee should at some point 
in the future recognize these additional sites and consider 
their addition to the Manhattan Project National Historical 
Park that the Chairman's bill is establishing, of which, again, 
I fully support.
    I thank you very much, Mr. Chairman, for all of your effort 
on H.R. 1208.
    Mr. Hastings. Would the gentleman yield?
    Mr. Sablan. I yield to the Chair.
    Mr. Hastings. I certainly concur with that, because the 
effort to win the Second World War, obviously, was not confined 
to just these three areas, but the concentration of that. Boy! 
You could make the case in a variety of ways that helped that 
war effort.
    I think the key point is, and I certainly concur, is we 
should not lose sight of the history that has brought us where 
we are today. And I think that is what the gentleman's point is 
and I certainly concur with that.
    Mr. Sablan. Thank you, Mr. Chairman. Actually, we should 
compute the history. And, God forbid that we ever have to--no 
one ever has to use this weapon again upon anybody. But thank 
you very much for your efforts, sir. I support, fully support 
H.R. 1208.
    Mr. Hastings. I thank the gentleman for yielding, and the 
Chair recognizes the gentleman from California, Mr. McClintock.
    Mr. McClintock. Well, I thank you. I just wanted to add 
that although hundreds of thousands of Japanese were killed by 
the deployment of these bombs, millions of Japanese and at 
least hundreds of thousands of American lives were saved by the 
deployment of these bombs.
    My father was a member of the 88th Infantry Division. He 
arrived in Italy in the spring of 1945. The 88th Infantry 
Division was to be part of the invasion of Japan with 
horrendous casualties projected on both sides. It was the 
deployment of the bomb because of the work that was carried out 
at these facilities, that invasion never had to take place. 
Those lives were saved and that's a very important part of the 
story that we should never forget.
    Mr. Hastings. I thank the gentleman. Is there any other 
questions for the panel?
    I am going to be parochial here for a minute, because I saw 
some people came into the hearing room a little bit late; 
namely, my wife, my daughter and my three granddaughters are 
here. So if you would stand up, I would appreciate that, just 
to be recognized, they are here visiting. So thank you.
    [Applause.]
    Mr. Hastings. If there is no further business to come 
before the Committee, the Committee stands adjourned.
    [Whereupon, at 10:46 a.m., the Subcommittee was adjourned.]

            [Additional Materials Submitted for the Record]

              Clarification for the Record by Fran Berting
                                                    April 18, 2013.
The Honorable Rob Bishop,
U.S. House of Representatives,
Washington, DC 20515.
The Honorable Raul Grijalva,
U.S. House of Representatives,
Washington, DC 20515.
    Dear Chairman Bishop and Ranking Member Grijalva,

    Thank you for the opportunity to testify last week on H.R. 1208, a 
bill to establish the Manhattan Project National Park in Oak Ridge, 
Tennessee, Los Alamos, New Mexico, and Hanford, Washington, and for 
other purposes. I would like to take this opportunity to clarify my 
answer to a question from Ranking Member Grijalva regarding using 
Federal funds for acquisition of additional property. The question from 
Ranking Member Grijalva was:

``Ms. Berting, last Congress the [Los Alamos] Historical Society 
expressed concerns with the language in this legislation, and I've 
heard it from other witnesses, preventing the park service from using 
Federal funds for acquisition of additional property. This is 
particularly of concern around Los Alamos. Is that concern still a 
valid one with the Society?''

    The position of the Los Alamos County and the Los Alamos Historical 
Society is that because of geography and history, the layout of Los 
Alamos is slightly different than the other Manhattan Project 
communities. The historic downtown, where the scientists lived, is 
several miles away from the remaining WWII sites at the laboratory, 
many of which are still behind the fence. Based on public meetings and 
a significant amount of local input, we know the community desires to 
have a park visitor's center located in or near the historic downtown. 
The National Park Service has also recommended a centralized visitors 
center in Los Alamos. The property in the downtown is privately owned 
and valuable, making a donation of such property to the park service 
difficult. Los Alamos County and the Los Alamos Historical Society 
would like the Park Service to have the option to be able to obtain 
property through purchase in order to achieve the ideal of a downtown 
park visitor's center.
    I would like to have this information added to the Subcommittee 
hearing record. Thank you again for the opportunity to testify on this 
important bill. I look forward to working with you and your committee 
to get a park established in Los Alamos, Oak Ridge and Hanford. Please 
contact me or Harry Burgess, County Administrator, with any additional 
questions.
            Sincerely,
                                              Fran Berting,
                      Councilor, Incorporated County of Los Alamos.

                                 <all>

</pre></body></html>
